Securities and Exchange
    Commission
   Office of Inspector General
During the first half of fiscal year 2006, the Office of Inspector
General assisted the Commission in its efforts to:

    - Prevent workplace violence,

    - Improve oversight of disgorgements and penalties,

    - Enhance the integrity of the Commission and its staff by
         investigating allegations of misconduct,

    - Ensure appropriate legal review of settlement agreements
         with employees,

    - Enhance the clearance process for separating
         employees,

    - Strengthen controls over use of the Commission shuttle
          bus, and

    - Assure the effectiveness of field office administrative
          controls.
                                                                                     PAGE 2




                                  Executive Summary
During this period (October 1, 2005 to March 31, 2006), the Office of Inspector General
(Office) issued two audit reports and four investigative memoranda on management issues.
These evaluations focused on oversight of disgorgements and penalties; administrative
controls in the Pacific Regional Office (PRO); the clearance process in the PRO; the
Commission shuttle bus; legal review of settlement agreements; and the workplace violence
prevention program. This work is described in more detail in the Audit Program section
below.
Nine investigations were closed during the period. Five subjects were referred to the
Department of Justice, which declined prosecution of these subjects. Seven subjects were
referred to Commission management. Management directed one subject to cease outside
employment, while management decided to take no action for another subject. One subject
referred during the prior semi-annual period was demoted to a non-supervisory position;
another subject referred during the prior period was suspended for five days and required to
attend anger management training. Seven subjects referred during this period and the prior
semi-annual period are awaiting disposition. The Investigative Program section below
describes the significant cases closed during the period.
Information technology (IT) management had been previously reported as a significant
problem. During this period, the Commission continued to improve its IT management, but
significant weaknesses remain. We intend to maintain our audit focus in this important
area.
An audit completed in a prior period found that Commission financial management controls
for fiscal year 2002 were effective in all material respects except for controls over property
accountability, accounting and control of disgorgements, information system and security
program controls, and the Disgorgement and Penalties Tracking System. We reported these
exceptions, taken together, as a significant problem.
The Government Accountability Office (GAO) identified similar weaknesses in its audits of
the Commission’s fiscal years 2004 and 2005 financial statements (except for property
accountability - the value of the property account balance was below the materiality
threshold). The Commission intends to complete corrective actions to address the weaknesses
in financial management controls by the end of fiscal year 2006.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.



                                           Audit Program
The Office issued two audit reports and four investigative reports on management issues
during the reporting period. These documents contained a total of 15 recommendations,

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   AP R I L 2 8 , 2 0 0 6
                                                                                    PAGE 3


which are further summarized below. Management generally concurred with the
recommendations, and in many cases took corrective actions during the evaluations.


OVERSIGHT OF DISGORGEMENTS AND PENALITES (AUDIT 403)
We reviewed Commission oversight of disgorgement and penalty payments from securities
law violators, and the recording of payment information. Generally, for the 29 actions we
sampled, disgorgements and penalties ordered were paid timely, and the related supporting
documentation was accurate.
We recommended that the Division of Enforcement and the Office of Financial
Management continue to address data limitations in the Case Activity Tracking System
(CATS) and continue development of a system to allow electronic access to case
documentation. Other recommendations included recording accurate payment due dates in
CATS, making Enforcement’s collections unit responsible for additional collections when
feasible, and encouraging wire payments or use of a lockbox for payments by check.


PACIFIC REGIONAL OFFICE (AUDIT 414)
We reviewed selected financial and administrative controls in the Pacific Regional Office in
Los Angeles, CA (PRO). During the audit, no material weaknesses in the PRO’s controls
came to our attention. We informally discussed several non-material control weaknesses
with PRO management, which agreed to implement corrective actions.


PRO EMPLOYEE CLEARANCE PROCESS (G-432)
During an investigation involving the Pacific Regional Office, we learned that the PRO did
not have adequate clearance procedures for separating employees. We made
recommendations to improve clearance procedures. These related to the timely and proper
completion of the employee clearance form, and the timely return and cancellation of
government-issued travel charge cards and passports.


COMMISSION SHUTTLE BUS (G-435)
During an investigation, we identified several concerns regarding the passenger logs for the
shuttle bus between Commission headquarters (Station Place) and the Operations Center.
These included missing logs, logs without starting dates or times or the driver’s name,
multiple dates recorded on the same log sheet, and illegible signatures by passengers and
drivers. In addition, we found that contrary to Commission policy, at least ten Commission
employees appeared to be using the shuttle bus for daily commuting to work at the
Operations Center.
We recommended that the Office of Administrative Services (OAS) develop improved
procedures for shuttle logs, update and publicize the shuttle bus policies and procedures,


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                  AP R I L 2 8 , 2 0 0 6
                                                                                     PAGE 4


and take steps to enforce these policies and procedures (e.g., by regularly reviewing the
shuttle logs).


LEGAL REVIEW OF SETTLEMENT AGREEMENTS (PI-05-26)
During a preliminary inquiry, we learned of a settlement agreement entered into by the
Office of Human Resources (OHR) to resolve an administrative grievance. The Office of
General Counsel (OGC) did not review the proposed settlement agreement.
To ensure proper consideration of legal issues affecting settlements, we recommended that
OHR and OGC develop policies and procedures regarding OGC’s role in settlement
negotiations and agreements.


WORKPLACE VIOLENCE PREVENTION PROGRAM (PI-06-17)
During a preliminary inquiry, we learned that the Commission has not updated its policy
prohibiting workplace violence and has no formal procedures for preventing and addressing
potential violence in the workplace.
We recommended that the Office of Human Resources update the policy prohibiting
workplace violence. We also recommended that OHR develop formal procedures for
preventing and addressing workplace violence, and distribute the updated policies and
procedures to Commission staff.



                                     Investigative Program
Nine investigations were closed during the period. Five subjects were referred to the
Department of Justice, which declined prosecution of these subjects. Seven subjects were
referred to Commission management. Management directed one subject to cease outside
employment, while management decided to take no action for another subject. One subject
referred during the prior semi-annual period was demoted to a non-supervisory position;
another subject referred during the prior period was suspended for five days and required
to attend anger management training. Seven subjects referred during this period and the
prior semi-annual period are awaiting disposition.
The most significant cases closed during the period are described below.


MISUSE OF COMMISSION IT RESOURCES
An Office investigation developed evidence that a staff member made threatening
statements in e-mail messages, exchanged e-mails containing foul and crude language, and
possessed and exchanged inappropriate computer files. We also found evidence that the
staff member possessed and forwarded to another employee possibly illegal copying
software, violated various information technology policies and procedures, and misused

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   AP R I L 2 8 , 2 0 0 6
                                                                                    PAGE 5


official time by sending personal e-mails during work hours. The Department of Justice
declined prosecution, and administrative action is pending.


MISUSE OF OFFICIAL TIME AND RESOURCES
An investigation found evidence that a supervisor misused official time and the official time
of subordinates to perform work for a private, non-profit enterprise. Our investigation also
disclosed that one of the subordinates was paid by the non-profit enterprise for work
performed on official Commission time. We further found evidence that the supervisor and
this subordinate misused government computer equipment and resources to support this
enterprise. The Department of Justice declined prosecution, and administrative action is
pending for both the supervisor and the subordinate.


RECEIPT OF A REFERRAL FEE
The Office investigated allegations that Commission staff members had recommended a
particular outside consulting firm to registrants, and that the consulting firm had paid
referral fees to staff members. The evidence developed during the investigation failed to
substantiate the allegation.


ABUSE OF DISCRETIONARY AUTHORITY
The Office investigated allegations that Commission supervisors had provided favorable
treatment to an individual because of his political connections, and that the supervisors had
excluded a former staff member from discussions concerning this individual. It was also
alleged that the supervisors had tampered with the former staff member’s personnel file.
The evidence developed during the investigation failed to substantiate the allegations.


CONFLICT OF INTEREST
The Office investigated an allegation that a staff member was engaged in outside
employment that appeared to conflict with the staff member’s official duties. We found
conflicting evidence concerning the ethics advice that had been provided to the staff
member. Management has directed the employee to terminate the outside employment.


THREATS
An investigation found evidence that a staff member approached a Commission security
guard on Commission premises and made threatening statements, after the two individuals
had a previous verbal altercation off Commission property. The Department of Justice
declined prosecution, and administrative action is pending.



S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                  AP R I L 2 8 , 2 0 0 6
                                                                                   PAGE 6



                                      Significant Problems
No new significant problems were identified during the period.



           Significant Problems Identified Previously

FINANCIAL MANAGEMENT SYSTEMS CONTROLS
An OIG contractor completed an audit of Commission financial management systems
controls during a prior period (Audit No. 362). The audit found that Commission financial
management controls for fiscal year 2002 were effective in all material respects, based on
criteria established under the Federal Managers Financial Integrity Act, except for three
material weaknesses and one material non-conformance.
The exceptions concerned property accountability, accounting and control of disgorgements,
information system and security program controls, and the Disgorgement and Penalties
Tracking System. We reported that, taken together, these financial management
exceptions were a significant problem for the Commission. Management concurred with
our recommendations to strengthen these financial controls, and promptly began to take
actions to correct the weaknesses.
The Government Accountability Office (GAO) performed the audit of the Commission’s
financial statements for fiscal years 2004 and 2005. The audits found that the Commission
has made significant progress in building a financial reporting structure for preparing
financial statements for audit. GAO also found that the SEC property account balance was
below the threshold for materiality; as a consequence we removed property accountability
as an element of this significant problem. However, GAO identified material internal
control weaknesses in preparing financial statements and related disclosures, recording
and reporting disgorgements and penalties, and information security, which is now the
basis for this significant problem.
Management intends to complete corrective actions by the end of fiscal year 2006 to address
the weaknesses identified by GAO and our office. GAO will review these actions in
connection with its audit of the Commission’s fiscal year 2006 financial statements.


INFORMATION TECHNOLOGY MANAGEMENT
Since April 1996, we have reported information technology (IT) management as a
significant problem based on weaknesses identified by several audits, investigations, and
management studies. Significant IT weaknesses of continuing concern include IT capital
investment decision-making; information systems security; administration of IT contracts;
IT project management; enterprise architecture management; strategic management of IT
human capital; and management of software licenses.

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 AP R I L 2 8 , 2 0 0 6
                                                                                     PAGE 7


During this semi-annual period, the Office of Information Technology (OIT) indicated that
it continued to strengthen the management of Commission IT and has made improvements
to correct this significant problem. Detailed descriptions of the progress made are included
in the Management Response accompanying this report. OIT expects that IT management
will no longer be a significant problem by the semi-annual reporting period beginning April
1, 2007.
Although OIT continues to take action to correct the identified IT weaknesses, we still
consider IT management to be a significant problem at this time. We intend to continue
our oversight of this area.



                                    Access to Information
The Office of Inspector General has received access to all information required to carry out
its activities. No reports to the Chairman, concerning refusal of such information, were
made during the period.



                                               Other Matters

EXTERNAL COORDINATION
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of
its Financial Institutions Regulatory Committee, and serves as the ECIE member on the
Integrity Committee (established by Executive Order No. 12993).
The Deputy Inspector General is an active member of the Federal Audit Executive Council
(FAEC). The FAEC considers audit issues relevant to the Inspector General community.
The Associate Inspector General for Investigations/Counsel to the Inspector General and
the Associate Counsels are active members of the PCIE Council of Counsels. The Council
considers legal issues relevant to the Inspector General community.


PEER REVIEW
The Office of Inspector General of the Corporation for Public Broadcasting performed a peer
review of the Office’s audit function during the period. It has not yet finalized its report.
We expect to make several changes to our Audit Manual as a result of the review to
enhance the Office’s quality control system for audits.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   AP R I L 2 8 , 2 0 0 6
                                                                                          PAGE 8




                                       Questioned Costs

                                                                         DOLLAR VALUE
                                                                       (IN THOUSANDS)


                                                                    UNSUPPORTED               QUESTIONED
                                                           NUMBER      COSTS                    COSTS
A          For which no management decision
           has been made by the
           commencement of the reporting                        0           0                                0
           period

B          Which were issued during the
           reporting period
                                                            0           0                                0

           Subtotals (A+B)                                      0           0                                0

C          For which a management decision                      0           0                                0
           was made during the reporting
           period

    (i)    Dollar value of disallowed costs                     0           0                                0

    (ii)   Dollar value of costs not                            0       0                                    0
           disallowed

D          For which no management                              0       0                                    0
           decision has been made by the end
           of the period

           Reports for which no management                      0       0                                    0
           decision was made within six
           months of issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                        AP R I L 2 8 , 2 0 0 6
                                                                                   PAGE 9




                 Recommendations That Funds Be Put To
                           Better Use
                                                                      DOLLAR VALUE
                                                           NUMBER    (IN THOUSANDS)
A               For which no management decision
                has been made by the commencement
                                                                 0             0
                of the reporting period
B               Which were issued during the
                reporting period
                                                             0             0


                Subtotals (A+B)                                  0             0
C               For which a management decision                  0             0
                was made during the period
      (i)       Dollar value of recommendations that             0             0
                were agreed to by management
            -   Based on proposed management                     0             0
                action
            -   Based on proposed legislative action             0             0
      (ii)      Dollar value of recommendations that             0             0
                were not agreed to by management
D               For which no management decision
                has been made by the end of the
                                                                 0             0
                reporting period
                Reports for which no management
                decision was made within six months
                                                                 0             0
                of issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                AP R I L 2 8 , 2 0 0 6
                                                                                 PAGE 10




           Reports with No Management Decisions
Management decisions have been made on all audit reports issued before the beginning of
this reporting period (October 1, 2005).



                     Revised Management Decisions
No management decisions were revised during the period.



           Agreement with Significant Management
                         Decisions
The Office of Inspector General agrees with all significant management decisions regarding
audit recommendations.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                AP R I L 2 8 , 2 0 0 6
                   MANAGEMENT RESPONSE OF 

           THE SECURITIES AND EXCHANGE COMMISSION 

 ACCOMPANYING THE SEMIANNUAL REPORT OF THE INSPECTOR GENERAL
      FOR THE PERIOD OCTOBER 1, 2005 THROUGH MARCH 31, 2006


Introduction

The Semiannual Report of the Inspector General (IG) of the Securities and Exchange
Commission (SEC) was submitted to the Chairman on April 28, 2006 as required by the
Inspector General Act of 1978, as amended. The report has been reviewed by a member of the
Executive Staff, Executive Director, General Counsel, and Director of the Division of
Enforcement. The Management Response is based on their views and advice to the Chairman.

The Management Response is divided into four sections to reflect the specific requirements
listed in Section 5(b) of the Inspector General Act of 1978, as amended.

                                       Section I                                                

                  Comments Keyed to Significant Sections of the IG Report


A. Audit Program

     During the reporting period, the IG issued two audit reports and four investigative
     memoranda on management issues. Management generally concurred with the findings and
     recommendations in the IG’s reports.

     In addition to audits performed by the agency’s IG, the Government Accountability Office
     (GAO) actively reviewed program and administrative functions of the SEC. A complete
     listing of all GAO audit activity involving the SEC is attached as Appendix A.

B.   Response to Significant Problems

     No new significant problems were identified by the IG during this reporting period.

C. Response to Significant Problems Previously Identified

     Financial Management Controls

     The Inspector General’s report continues to identify financial management controls
     as a significant problem, specifically the areas of accounting and control of
     disgorgements and information system and security program controls. The
     Government Accountability Office also identified financial management controls as
     a weakness in its 2004 and 2005 audits of the Commission’s financial statements.
     GAO also noted in its most recent report that the SEC made progress in fiscal year
     2005 in addressing its internal control weaknesses, and we have redoubled our
     efforts in fiscal year 2006.
With respect to financial reporting, the SEC has added resources and expertise to its
Office of Financial Management, and management is nearing completion of a
comprehensive set of written procedures governing financial reporting processes and
related internal controls. In addition, beginning with the SEC’s second quarter
financial statements, its Financial Management Oversight Committee will provide
executive-level review of the SEC’s financial statements, and the Committee will
also provide regular oversight with respect to the agency’s financial and accounting
policies and procedures and internal controls. Management expects to have this
problem fully resolved in 2006.

The SEC also has made substantial progress in addressing its weakness in controls
over recording and reporting of disgorgement and penalty activity. For the past
several months, the agency has convened a regular working group comprised of
representatives from the Division of Enforcement and the Offices of Financial
Management, Information Technology, the Secretary, and the Executive Director,
with the objective of fully resolving this material weakness during fiscal year 2006.
The group has undertaken the following principal initiatives:

•	 Clarifying and streamlining responsibilities across divisions and offices and 

   documenting and implementing a comprehensive set of procedures and controls; 


•	 Designing a new financial management system to replace the financial portion of 

   the existing Enforcement database; 


•	 Eliminating inaccuracies in the existing database to ensure data integrity in the 

   new financial system going forward; and 


•	 Clarifying the SEC’s policies with respect to debt terminations and write-offs

   and clearing out a backlog of old, uncollected debts. 


SEC management believes these initiatives are responsive to the Inspector General’s
and GAO’s concerns and will substantially improve the agency’s controls over
disgorgement and penalty activity.

Information Resources Management

During this semi-annual period, the Office of Information Technology continued to
strengthen the management of Commission IT. Among other actions, SEC management
made the following improvements:

•	 Completed certification and accreditation for the general support systems; this brings the
   number of major applications certified and accredited to 16. The remaining 4 major
   applications are on track to be accredited during the spring;

                                            2

     •	 Completed and tested contingency plans for major applications;

     •	 Improved the process for maintaining and tracking plans of action & milestones;

     •	 Started implementation of Homeland Security Directive 12, which will integrate physical
        and IT access controls with federal requirements and best practices;

     •	 Established a new portfolio management process to aid certain SEC decision-makers in
        prioritizing IT investments;

     •	 Deployed the Enterprise Data Architecture, which is based upon a logical model of
        structured data and the business of the Commission, and incorporates full integration
        capability for all like data elements; and

     •	 Reviewed software operating on all Commission workstations and established an official
        inventory list of applications authorized and supported on the Commission’s network.

     SEC management will continue to enhance its IT management and expects that this area will
     no longer be a significant problem beginning spring 2007.

D. IG Recommendations Concerning Use of Funds

      None.

E.    Reports with No Management Decisions

     Management decisions have been made on all audits issued prior to the beginning of the
     reporting period (October 1, 2005).

F.    Revised Management Decisions

      No management decisions were revised during the reporting period.




                                                3

SEC Management Response to
Semiannual IG Report
October 1, 2005 – March 31, 2006


                                           SECTION II                                 

                                        Disallowed Costs                              

                                       As of March 31, 2006 



                                                                     Dollar Value
                                                            Number   (in thousands)

A. 	   For which final action has
       not been taken by the
       commencement of the
       reporting period                                         0           $0

B. 	   On which management decisions
       were made during the reporting
       period                                                   0           $0

       (Subtotal A+B)        	                                  0           $0

C. 	   For which final action was
       taken during the reporting
       period                                                   0           $0

       (i)    Recovered by management 	                         0           $0

       (ii)   Disallowed by management                          0	          $0

D. 	   For which no final action has
       been taken by the end of the
       reporting period                                         0           $0




                                                4

SEC Management Response to
Semiannual IG Report
October 1, 2005 – March 31, 2006


                                           SECTION III                               

                                      Funds Put to Better Use 

                                       As of March 31, 2006 



                                                                    Dollar Value
                                                           Number   (in thousands)

A. 	   For which final action has
       not been taken by the
       commencement of the
       reporting period                                      0             $0

B. 	   On which management decisions
       were made during the reporting
       period                                                0             $0

C. 	   For which final action was
       taken during the reporting
       period:

       (i) 	    Dollar value of recom
                mendations that were
                agreed to by management                      0             $0

       (ii) 	   Dollar value of recom
                mendations that management
                has subsequently concluded
                should/could not be
                implemented or completed                     0             $0

D. 	   For which no final action has been
       taken by the end of the reporting period              0             $0




                                                  5

                                                                                     SEC Management Response to
                                                                                     Semiannual IG Report
                                                                                     October 1, 2005 – March 31, 2006

                                                    SECTION IV
                                        Open Audit Reports Over One Year Old
                                               As of March 31, 2006


                                              Funds Put to
                                               Better Use         Questioned Costs
Audit #   Audit Title                        (in thousands)        (in thousands)    Reason Final Action Not Taken

220       IRM Planning and
          Execution          3/26/1996            $0                    $0           An overarching policy framework
                                                                                     was implemented in fiscal 2005, which
                                                                                     addresses all aspects of IT management.
                                                                                     A major initiative is underway, and
                    Issued
                                                                                     resources have been obtained to publish all
                                                                                     IT-related policies by March 31, 2007.

243       SECOA Local Area
          Network            3/21/1997            $0                    $0           A major effort is underway to certify and
                                                                                     accredit existing major applications and
                                                                                     general support systems. Certification and
                                                                                     accreditation has been completed for 16
                                                                                     major applications; the remaining 4 are on
                                                                                     track to be accredited in 2006.

257       Client Server      9/9/1997             $0                    $0           See explanation for audit #220 above.

                                                              6
                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           October 1, 2005 – March 31, 2006

                                                         SECTION IV                                                                    

                                             Open Audit Reports Over One Year Old 

                                                    As of March 31, 2006 



                                                   Funds Put to
                                                    Better Use          Questioned Costs
Audit #   Audit Title               Issued        (in thousands)         (in thousands)     Reason Final Action Not Taken

309       Telecommunications
          Vulnerabilities           3/31/2000          $0                     $0            Extensive revision is underway to all IT
                                                                                            policies.

320       General Computer Controls 12/26/2000         $0                     $0 	          The recommendations are being addressed
                                                                                            as part of the remediation efforts underway
                                                                                            as a result of the audits of SEC’s financial
                                                                                            statements.

327	      General Computer
          Controls—Regions          2/28/2001          $0                     $0            See explanation for audit #220.

337       IT Project Management     1/24/2002          $0                     $0 	          See explanation for audit #220.




                                                                   7

                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         October 1, 2005 – March 31, 2006

                                                       SECTION IV                                                                 

                                           Open Audit Reports Over One Year Old 

                                                  As of March 31, 2006 



                                                 Funds Put to
                                                  Better Use          Questioned Costs
Audit #   Audit Title             Issued        (in thousands)        (in thousands)      Reason Final Action Not Taken

350       Administration of IT
          Contracts               8/28/2002          $0                     $0            A new automated procurement system is
                                                                                          being implemented.

351	      EDGAR Utility to
          Commission Staff        1/15/2003          $0                     $0 	          Post-acceptance corrections are being
                                                                                          addressed. The outcome will
                                                                                          become part of the requirements for a
                                                                                          follow-on contract, which should be signed
                                                                                          in 2006.

353	      Regional Telecommuni-
          cations Security        8/20/2002          $0                     $0            See explanation for audit #309.




                                                                 8

                                                                                             SEC Management Response to
                                                                                             Semiannual IG Report
                                                                                             October 1, 2005 – March 31, 2006


                                                             SECTION IV                                                                

                                                 Open Audit Reports Over One Year Old 

                                                        As of March 31, 2006 


                                                    Funds Put to
                                                     Better Use         Questioned Costs
Audit #   Audit Title                Issued        (in thousands)        (in thousands)    Reason Final Action Not Taken

361       Commission Web Security    9/30/2002          $0 	                  $0           See explanation for audit #320.

362       Financial Management
          System Controls            3/27/2003          $0                    $0 	         See explanation for #320. Also, several
                                                                                           actions are awaiting GAO review prior to
                                                                                           closure of certain audit recommendations.

365       IT Capital Investment
          Decision-making Followup   3/29/2004          $0                    $0 	         A charter for the SEC’s Capital Planning
                                                                                           Committee and several policy documents
                                                                                           are being reviewed by the Office of
                                                                                           General Counsel.




                                                                    9
                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           October 1, 2005 – March 31, 2006

                                                        SECTION IV                                                                       

                                            Open Audit Reports Over One Year Old 

                                                   As of March 31, 2006 


                                                  Funds Put to
                                                   Better Use           Questioned Costs
Audit #   Audit Title              Issued        (in thousands)          (in thousands)    Reason Final Action Not Taken

371	      Small Business Reg D
          Exemption Process        3/31/2004          $0                      $0           The two remaining recommendations
                                                                                           are being addressed as part of a rule-
                                                                                           making initiative. A process has been
                                                                                           worked out to coordinate development
                                                                                           of the rule proposals with state securities
                                                                                           regulators.

376 	     Telephone Card Program   11/17/2003         $0                      $0           A formal policy document is expected
                                                                                           to be completed in August 2006.

377	      Lost and Stolen
          Securities Program       3/31/2004          $0                      $0           Several Commission releases are expected
                                                                                           to be revised.




                                                                  10

                                                                                            SEC Management Response to
                                                                                            Semiannual IG Report
                                                                                            October 1, 2005 – March 31, 2006

                                                         SECTION IV                                                                    

                                             Open Audit Reports Over One Year Old 

                                                    As of March 31, 2006 



                                                   Funds Put to
                                                    Better Use           Questioned Costs
Audit #   Audit Title               Issued        (in thousands)          (in thousands)       Reason Final Action Not Taken

380 	     IT Contractor Billings    1/10/2005          $0                      $0              Some agency-wide policies are expected
                                                                                               to be changed in conjunction with the
                                                                                               automated procurement system currently
                                                                                               being implemented.

383	      Targeting IA/IC           9/29/2004          $0                      $0
          Compliance Examinations                                                              Various options are being considered
                                                                                               to enhance the Commission’s
                                                                                               surveillance of investment advisers.

385	      Office of Economic
          Analysis                  6/29/2004          $0                     $0               Efforts are underway to define a
                                                                                               form of publication that is viewed as
                                                                                               the work of staff.




                                                                   11

                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         October 1, 2005 – March 31, 2006

                                                      SECTION IV                                                                     

                                          Open Audit Reports Over One Year Old 

                                                 As of March 31, 2006 



                                                Funds Put to
                                                 Better Use           Questioned Costs
Audit #   Audit Title            Issued        (in thousands)          (in thousands)       Reason Final Action Not Taken

387	      Planning Investment
          Mgt. Filing Reviews    3/29/2005          $0                     $0               Training is being arranged for certain
                                                                                            staff on developing GPRA outcome
                                                                                            goals, objectives, and measures.

392	      Regional Information                                                              Several of the recommendations require
          Technology Mgt—Pilot   2/14/2005          $0                     $0               solutions spanning multiple years.

393 	     Software Management                       $0                     $0               Policies and procedures are being
                                                                                            developed. In addition, work is
                                                                                            underway to identify performance
                                                                                            metrics for monitoring and follow-up
                                                                                            on software licensing information.




                                                                12

                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           October 1, 2005 – March 31, 2006

                                                        SECTION IV                                                              

                                            Open Audit Reports Over One Year Old 

                                                   As of March 31, 2006 



                                                  Funds Put to
                                                   Better Use           Questioned Costs
Audit #   Audit Title              Issued        (in thousands)          (in thousands)       Reason Final Action Not Taken

398	      Management of Wireless
          Devices                  3/24/2005          $0                     $0               See explanation for audit #309.

400	      Regional IT Mgt—SERO     3/24/2005          $0                     $0               See explanation for audit #392.




                                                                  13

                                                                     APPENDIX A


               GOVERNMENT ACCOUNTABILITY OFFICE AUDIT ACTIVITY 

              INVOLVING THE SECURITIES AND EXCHANGE COMMISSION 



Reports Completed During the Reporting Period

1. 	   SEC Project Management (GAO-06-61R, Oct. 20, 2005)

2. 	   Financial Product Sales: Actions Needed to Better Protect Military Members (GAO-06-23,
       Nov. 2005)

3.	    Financial Audit: Securities and Exchange Commission’s Financial Statements for Fiscal
       Years 2005 and 2004 (GAO-06-239, Nov. 2005)

4.	    Securities and Exchange Commission: Some Progress Made on Strategic Human Capital
       Management (GAO-06-86, Jan. 2006)

5.	    Social Security Numbers: Stronger Protections Needed When Contractors Have Access to
       SSNs (GAO-06-238, Jan. 2006)

6.	    Information Security: Securities and Exchange Commission Needs to Continue to Improve Its
       Program (GAO-06-408, Mar. 2006)

7.	    Private Pensions: Opportunities Exist to Further Improve the Transparency of PBGC’s
       Financial Disclosures (GAO-06-429, Mar. 2006)


Projects Active as of March 31, 2006

1.	    Effects of Sarbanes-Oxley on Small Business (250224). A review of (1) the effects of the
       Act on small companies, (2) the extent to which financial institutions and states require
       small privately-held companies to comply with provisions of the Act and the corresponding
       impacts, and (3) the impact, if any, the Act has had on small accounting and auditing firms.

2.	    Financial Statement Restatements II (250250). A review of (1) the reasons for and trends
       in financial restatements since the completion of GAO’s 2002 study, (2) the impact of
       restatement announcements on the restating companies’ stock market capitalization, (3)
       available research to determine the impact of financial restatements on investors’
       confidence in the capital markets, and (4) federal and state enforcement actions involving
       accounting and auditing irregularities.

3.	    FY 2006 Financial Statement Audit. An audit of the SEC’s fiscal year 2006 financial
       statements.
4.	   SEC’s Internal Control (194570). In connection with the 2005 financial statement audit, a
      review of the SEC’s internal controls and compliance with selected provisions of laws and
      regulations.

5.	   Pay and Performance Systems (450460). A review of the extent to which various financial
      regulatory agencies’ pay and performance management systems are aligned with key
      practices important for effective performance management.

6.	   Financial Market Preparedness (250285). An assessment of the progress made by U.S.
      financial regulators and market participants in preparation for wide scale disruptions; a
      follow-up on issues and recommendations from prior GAO reports.

7.	   Prompt Corrective Action Program (250289). A study of the efficiency and effectiveness
      of the administration of the PCA program under the Federal Deposit Insurance Act by the
      federal banking agencies, including their effectiveness in identifying and taking action with
      respect to troubled depository institutions, and the accuracy of risk assessments made by
      the FDIC.

8.	   Structure and Mission of FDIC (250290). A review of the appropriateness of FDIC’s
      organizational structure for its mission, taking into account the size and complexity of
      insured depository institutions, the effect of the organizational structure on inefficiencies
      that increase operational costs, and the effectiveness of FDIC’s internal controls.

9.	   Implementation of the New Basel Capital Accord (250291). A review of the potential
      impact of the implementation of Basel II on the U.S. financial system and the proposed
      revisions to current reserve requirement regulations for non-Basel II banks, including: (a)
      the impact of Basel II on U.S. capital requirements; (b) the ability of U.S. banks and bank
      regulators to implement and comply with Basel II; and (c) the ability of U.S. financial
      regulatory agencies to obtain sufficient expertise and to oversee institutions subject to
      Basel II.

10.	 Consolidated Supervision of Financial Institutions (250258). A review of the policies and
     procedures of various agencies engaged in consolidated supervisory responsibilities for
     financial institutions to determine how they differ, the effectiveness of consolidated
     supervision and the extent to which agencies seek to improve its effectiveness by
     identifying and adopting “best practices”, and the implications of any duplication of
     resources caused by having various regulatory bodies engaged in overseeing similar
     activities.

11.	 Financial Market Preparedness (250285). An assessment of the progress made by U.S.
     financial regulators and market participants in preparation for wide scale disruptions.

12.	 CFTC Oversight (250256) and Natural Gas Prices (360659). A review of the CFTC’s
     oversight of futures trading in energy. A review of the factors that affect natural gas price
                                                2

     volatility—particularly those driving today’s higher prices—and the federal government’s
     role in ensuring that prices are determined in a competitive market. Although SEC is not
     the focus of these studies, GAO is interested in learning about, among other things, (1) the
     SEC’s equities market surveillance and how the role played by hedge funds in the financial
     markets has changed.

13.	 Information Resellers (250249). A review of how financial institutions in the banking and
     securities industry use information provided by resellers of consumer information, and
     what steps federal regulators are taking to ensure that resellers adhere to federal privacy
     laws and protect the rights of consumers.

14.	 Pension Plan Asset Management (130554). A study of potential conflicts that may exist
     involving investment managers and the effect those conflicts may have had on recent
     problems in plan underfunding.

15.	 401(k) Fees and Expenses (130544). The primary focus of this study is the Department of
     Labor and activities carried out under the Employee Retirement Investment Security Act.
     However, GAO plans to obtain information about the transparency of fees and expenses for
     mutual funds and other investment options offered through 401(k) plans and SEC’s role in
     monitoring them.

16.	 Financial Literacy and Education (250276). A review of the Financial Literacy and
     Education Commission’s national strategy and activities to promote financial literacy and
     coordinate federal efforts in this area.

17.	 EEO Leadership Survey (450307). A government-wide survey of (1) how agencies are
     structured to meet EEO, affirmative employment and workforce diversity requirements, (2)
     the extent to which human capital and EEO managers perceive that these requirements
     contribute to EEO, affirmative employment, and workforce diversity objectives, and (3)
     how human capital and EEO managers view the guidance and feedback central leadership
     agencies provide.




                                               3

